                                                     IG-02-016




AUDIT
                            GODDARD SPACE FLIGHT CENTER’S
REPORT                     COMPLIANCE WITH EXPORT LAWS AND
                                    REGULATIONS
                                      May 14, 2002




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for
Audits at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General
for Audits. Ideas and requests can also be mailed to:

       Assistant Inspector General for Audits
       Code W
       NASA Headquarters
       Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800) 424-9183,
(800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form or write to the
NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC 20026.
The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.

Reader Survey
Please complete the reader survey at the end of this report or at
www.hq.nasa.gov/office/oig/hq/audits.html.




Acronyms

CTO            Center Transportation Officer
ECP            Export Control Program
GAO            General Accounting Office
NPD            NASA Policy Directive
                                     May 14, 2002
W


TO:           I/Assistant Administrator for External Relations
              100/Director, Goddard Space Flight Center
              SJ/Director, NASA Management Office, Jet Propulsion Laboratory

FROM:         W/Assistant Inspector General for Audits

SUBJECT:      Final Report on Goddard Space Flight Center’s Compliance with Export
              Laws and Regulations
              Assignment Number A-01-048-00
              Report Number IG-02-016


Enclosed please find the subject final report. Our evaluation of your response has been
incorporated into the body of the report. The corrective action completed on
recommendation 5 is responsive, and the recommendation is considered closed for
reporting purposes. The corrective actions planned for recommendations 1 through 4 and
6 were also responsive. Please provide estimated completion dates for the corrective
actions, and notify us when actions have been completed on those recommendations,
including the extent of testing performed to ensure corrective actions are effective. The
final report distribution is in Appendix D.

We appreciate the courtesies extended to the audit staff. If you have questions
concerning the report, please contact Ms. Sandy Massey, Program Director, Safety and
Technology Audits, at (321) 867-4057, or Mr. Karl Allen, Program Manager, at (202)
358-2595.



[original signed by]
Alan J. Lamoreaux

Enclosure
                                                   2

cc:
AI/Associate Deputy Administrator
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science
ID/Director, Assessments and Technology Division
ID/NASA Export Administrator
JM/Director, Management Assessment Division
                           NASA Office of Inspector General
IG-02-016                                                                            May 14, 2002
 A-01-048-00

                             Goddard Space Flight Center’s
                               Compliance with Export
                                Laws and Regulations

Introduction

The NASA Office of Inspector General has completed an audit of NASA’s compliance
with export laws and regulations at Goddard Space Flight Center (Goddard) and the Jet
Propulsion Laboratory. We performed the audit in response to language in Public Law
106-391, “NASA Authorization Act of 2000,” October 30, 2000, which authorizes
Agency appropriations for fiscal years 2000-2002. The Act requires the NASA Inspector
General to conduct annual audits of the Agency’s exports1 of technologies and transfers
of scientific and technical information and to assess the extent to which NASA is
carrying out its activities in compliance with Federal export control laws.

We reviewed exports by Goddard and the Jet Propulsion Laboratory because NASA
obtained the majority of its recent export licenses at those locations. Specifically,
Goddard and the Jet Propulsion Laboratory had a total of 40 (72 percent) out of the 56
export licenses NASA obtained from January 1997 through June 2001.

Our office and the General Accounting Office (GAO) previously performed audits of the
NASA Export Control Program (ECP). We issued three reports from 1999 through 2000,
and the GAO issued one report in 1999. Each report is summarized in Appendix B.

The objective of this audit was to determine whether NASA exported controlled
technology in accordance with applicable export laws and regulations and established
Agency export guidance. Specifically, we determined whether NASA exports of items
containing controlled technologies:

      •      were covered by applicable export licenses and

      •      were within the scope of export licenses.

Appendix A contains further details on the audit objectives, scope, and methodology.




1
 NASA’s Office of External Affairs defines exports as transfers of anything to a foreign person anywhere
or anytime or a transfer to a U.S. person that will be subsequently transferred to a foreign person.
Results in Brief

The exports we reviewed for Goddard and the Jet Propulsion Laboratory were covered by
applicable export licenses and were within the scope of the licenses as required by export
control laws and regulations. In addition, NASA’s Office of External Relations
established an ECP policy to assist the Centers in managing the ECP and to preclude
NASA officials and contractors from effecting exports that could conflict with U.S.
export laws and regulations. NASA is in the process of finalizing Agency procedures
and guidelines to implement ECP policy.

We did not identify any export violations. However, Goddard can improve its ECP
management controls to ensure continued compliance with Federal export laws and
regulations. In addition, Goddard was not in full compliance with NASA’s internal
policies. Noncompliance could result in potential export license violations, unauthorized
exports, and statutory penalties for export violations imposed by the Department of
State’s Office of Defense Trade Controls or the Department of Commerce’s Bureau of
Export Administration. Our prior audits identified ECP management control weaknesses
related to ECP personnel training and audit performance. The ECP control weaknesses
we identified during this audit at Goddard indicate the need for increased attention by
NASA management.

Background

As a U.S. Government agency on the leading edge of space and aeronautics technological
development and international cooperation, NASA must be a responsible exporter in its
international activities. International activities often involve the transfer of commodities,
software, or technologies to foreign partners by NASA and its contractors. The transfers
are generally subject to export control laws and regulations, regardless of whether they
occur in the United States, overseas, or in space.

Export controls are imposed on NASA’s transfers and activities to protect the national
security and to further U.S. foreign policy objectives. The majority of export licenses are
governed and controlled by either the Office of Defense Trade Controls or the Bureau of
Export Administration. The Office of Defense Trade Controls is responsible for
controlling items identified on the U.S. Munitions List2 pursuant to the International
Traffic in Arms Regulations. 3 The Bureau of Export Administration controls items
identified on the Commerce Control List4 in accordance with the Export Administration




2
  The U.S. Munitions List identifies items designated by the President to be defense articles and services.
3
  The International Traffic in Arms Regulations provide for controlling the export and import of defense
articles and services pursuant to the Arms Export Control Act.
4
  The Commerce Control List identifies “dual-use” items that have military/strategic and civil applications.


                                                     2
Regulations. 5 Since January 1997, NASA has obtained a total of 38 export licenses from
the Office of Defense Trade Controls and a total of 18 export licenses from the Bureau of
Export Administration.

The NASA Office of External Relations is the lead liaison with the Department of
Defense and the intelligence community, Department of State, Department of Commerce,
Office of Science and Technology Policy, Office of the Vice President, and National
Science and Technology Council on international policy issues. The NASA Office of
External Relations administers the NASA ECP, provides Agencywide policy on
international activities, and coordinates day-to-day international interaction at the
Headquarters level in support of NASA's Enterprises.6

Center Directors are responsible for ensuring that international projects under their
purview comply with U.S. export control laws and regulations and NASA Policy
Directive (NPD) 2190.1, “NASA Export Control Program,” dated May 24, 2001. In
accordance with the NPD, each Center Director must appoint a Center Export
Administrator (Export Administrator) responsible for administering the ECP.
Additionally, each Center Director must appoint a qualified individual as Center Export
Auditor (Export Auditor) to annually review the operation of the ECP.

Management Controls Related to the Goddard ECP

Finding. Goddard’s management controls for its ECP can be improved. Specifically,
Goddard had not:

    •   established sufficient controls over outgoing international mail to reduce the risk
        of unauthorized exports;

    •   established formal training plans for personnel having export control
        responsibilities;

    •   appointed key ECP officials in accordance with NPD 2190.1 and the NASA ECP
        Pamphlet (described on next page); or

    •   established adequate separation of duties for key personnel with export control
        responsibilities.




5
  The Export Administration Regulations implement the export and re-export requirements of the Export
Administration Act of 1979.
6
  NASA’s Enterprises are Space Science, Earth Science, Biological and Physical Research, Human
Exploration and Development of Space, and Aerospace Technology.


                                                   3
Goddard’s ineffective ECP audits and the lack of supplemental Agency ECP procedures
and guidelines7 contributed to the control weaknesses. By improving its ECP controls,
Goddard could provide greater assurance that its controlled technologies were properly
exported and that errors and unauthorized exports would be readily detected and
prevented.

NASA’s ECP Policy

NASA’s ECP policy is addressed in NPD 2190.1 and the NASA Export Control
Pamphlet, November 1995. The NPD states that it is NASA policy to ensure that exports
and transfers of commodities, technical data, or software to foreign persons are in
accordance with U.S. export control laws and regulations and NASA policy. The NPD
also defines an export as the transfer (by physical, electronic, oral, visual, or other means
including mail) of a commodity, software, or technical data to a foreign person or a
foreign person’s U.S. representative who is either abroad or in the United States.

The NASA ECP Pamphlet does the following:

    •   outlines the Agency's role and policy in exports to foreign partners;

    •   provides for the appointment of and summarizes the authorities and
        responsibilities of Headquarters and Field Center ECP officials;

    •   outlines general export control responsibilities for NASA personnel;

    •   establishes ECP documentation and recordkeeping requirements, training
        requirements, and annual ECP audits; and

    •   outlines the ECP audit process.

To facilitate NASA exports, NPD 2190.1 and the NASA ECP Pamphlet require NASA
Center Directors to appoint an Export Administrator who is responsible to:

    •   ensure that Center activities comply with U.S. export control laws and
        regulations;

    •   initiate ECP awareness and training programs;




7
 As a result of our audit report, “NASA Oversight of Contractor Exports of Controlled Technologies,”
dated March 23, 2000, NASA agreed to establish procedures and guidelines for better management of the
Agency’s ECP. NASA has not yet issued the recommended procedures and guidelines in final form.


                                                  4
    •   consult with the Center’s Export Counsel8 (Export Counsel), the Center
        Transportation Officer (CTO),9 and Project Managers on export control matters;
        and

    •   serve as the Center point of contact for the NASA Headquarters Export
        Administrator.

NPD 2190.1 also requires that Center Directors appoint Export Auditors to perform
annual reviews of the ECP at each Center. The annual audits include reviews of ECP
communications, training information, and guidance; verification that ECP or other
export control training is documented; verification that required screening and licensing
procedures are regularly followed; and verification that required documents are
maintained and in compliance with the requirements of the Export Administration
Regulations and the International Traffic in Arms Regulations.

Federal Government Management Control Requirements

The Office of Management and Budget Circular A-123, “Management Accountability
and Control,” which references GAO’s “Standards for Internal Control in the Federal
Government,” requires that program operations comply with applicable laws and
regulations; appropriate authority, responsibility, and accountability be defined and
delegated to accomplish the agency’s mission; personnel be adequately trained and
competent to perform assigned duties; and key duties and responsibilities in authorizing,
processing, recording, and reviewing official agency transactions be separated among
individuals.

ECP Management Controls

Goddard’s ECP management controls needed improvement in the areas of outgoing
international mail, personnel training, appointment of key officials, and separation of
duties among key officials.

Controls Over Outgoing International Mail. Goddard needed additional ECP controls
for documents, software, or technical information that could be sent by international mail
or parcel service to most foreign countries. The Export Administrator did not review
international mail. The Center’s International Coordinator, who reports to the Associate
Center Director, is not part of the ECP. The International Coordinator instructed
mailroom employees to forward for her review, mail (letters and packages) addressed to
or from countries on the International Traffic in Arms Regulations proscribed countries



8
  Each Center’s Chief Counsel must appoint an Export Counsel to provide the Center Export Administrator
with legal guidance on export control matters.
9
  The NASA ECP Pamphlet requires that each CTO consult with the Center Export Administrator to ensure
that exports and transfers of commodities, technologies, and software are accompanied by appropriate and
accurate export control documentation.


                                                   5
list.10 The Coordinator’s review consisted of contacting the sender to determine whether
the contents of the mail constituted an export. However, the Export Administrator and
the International Coordinator neither reviewed nor provided guidance for processing mail
addressed to countries other than those on the proscribed list.

The Export Administrator and International Coordinator acknowledged that the Center
lacked the necessary controls to ensure that exports to countries not on the proscribed list
by regular mail or parcel services complied with applicable laws and regulations. While
those officials believed employee ECP awareness was an essential control in preventing
unauthorized exports, the two Project Managers we interviewed11 were unaware of ECP
requirements, including those related to sending international mail. Consequently,
Goddard management had little assurance that Center personnel properly used
international mail or parcel service for sending controlled technologies to foreign
countries.

The Jet Propulsion Laboratory recently developed procedures to address similar
problems. Specifically, the procedures required Project Managers and other senders to
attest to the contents of all outgoing international mail by completing and signing a self-
certification form to accompany the item to be mailed. Additionally, the procedures
required the Laboratory’s Export Administrator to review the forms and approve each
mailing. The Laboratory’s Mail Services personnel are required to return foreign mail
that does not have the required certification form to the sender. Although the procedures
did not preclude employees from sending international mail through off-site mail and
parcel facilities, the procedures reduced the likelihood that the Laboratory’s mail center
could be used to improperly send controlled technologies to foreign countries.
Implementation of similar control procedures for Goddard’s outgoing international mail
would help to ensure the Center’s compliance with the ECP policies and objectives and
to prevent unauthorized exports.

Training Plans for Personnel with ECP Responsibilities. The NASA ECP Pamphlet
requires the Headquarters Export Administrator and Center Export Administrators to
conduct or arrange annual training for NASA officials, to include the Export Counsel,
Program and Project Managers, CTO’s, and other personnel involved in export issues.
The Goddard Export Administrator had not developed a training plan for personnel with
ECP responsibilities in accordance with the ECP Pamphlet. Some Project Managers and
other responsible personnel were assigned to projects that had technology exports;
however, they had not received required ECP training. Consequently, they were not
knowledgeable of ECP requirements. Within the management control environment,
establishing appropriate training is critical. Goddard could improve its ECP control

10
   Proscribed countries are those that have been banned from receiving U.S. exports of controlled
technologies. If a country appears on the proscribed countries list, it is generally U.S. policy to deny
licenses, or other approvals, associated with exports and imports of defense articles and defense services
destined for or originating in that country.
11
   We interviewed Goddard’s acting Project Managers for the Very Long Baseline Interferometer and
Tropical Rainforest Measuring Mission projects regarding the Center’s ECP. Both projects included
licensed exports of technology and space hardware.


                                                     6
environment by initiating an awareness program, developing a training plan, and
providing training for personnel involved in export processes.

Appointment of ECP Key Personnel. NPD 2190.1 requires the Center Director to
appoint an Export Administrator and Export Auditor and requires the Center Chief
Counsel to appoint an Export Counsel. Goddard, however, had not formally appointed
personnel to any of those three key positions as discussed below:

     •   Export Administrator. A former employee of Goddard’s Management Operations
         Directorate appointed the Export Administrator.

     •   Export Counsel. The NASA Headquarters Export Administrator and the NASA
         ECP Web site identified the Goddard Chief Counsel as the Export Counsel.
         However, the Goddard Chief Counsel had never been formally appointed.
         Furthermore, the Goddard Chief Counsel had not received any ECP training in
         more than 2 years. Another employee of the Chief Counsel’s office received
         annual training,12 consulted with Center personnel on export matters, and
         ultimately performed the majority of Goddard’s Export Counsel duties.

     •   Export Auditor. The Center Director did not formally appoint the Export Auditor.
         The Export Auditor assumed the duties after receiving an informal request from
         the Export Administrator.

The GAO Standards for Internal Control in the Federal Government state, “a good
internal control environment requires that the agency’s organizational structure clearly
define key areas of authority and responsibility and establish appropriate lines of
reporting.” Further, the internal control environment is affected by delegation of
authority and responsibility. Appointments that give appearances of potential conflicts of
interest and a lack of a segregation of duties do not contribute to a positive ECP control
environment. Proper appointments for the Goddard Export Administrator, Export
Counsel, and Export Auditor would help ensure compliance with the NPD and GAO
standards and improve the overall ECP control environment.

Separation of Duties for Export Control Personnel. Goddard did not adequately
separate the duties of the Export Administrator, CTO, and Export Auditor to reduce the
risk of errors and fraud in its ECP. For example, the Export Administrator also serves as
CTO. NPD 2190.1 and the NASA ECP Pamphlet refer to the two positions as separate
and distinct. Specifically, the NASA ECP Pamphlet states that Center Export
Administrators will coordinate with Export Counsel, CTO’s, and Project Managers on
export control matters affecting NASA programs. The ECP Pamphlet further requires
CTO’s, in consultation with Export Administrators, to ensure that all exports are
accompanied by appropriate ECP documentation. Having one individual act in both


12
  The employee attended the Bureau of Export Administration update conference, the International Traffic
in Arms Regulations conference, and the NASA export conference annually.


                                                   7
capacities (Export Administrator and CTO) contravenes GAO standards and Agency
policy on separation of duties and increases Goddard’s risk of committing an undetected
export violation.

The Export Auditor’s responsibilities were also not adequately separated. The Export
Auditor’s primary duties were as Goddard’s transportation specialist who reports to the
Goddard Export Administrator/CTO. In addition, the Export Auditor served as the
Headquarters Transportation Officer and could have been involved in export shipments
made by NASA Headquarters through Goddard. The dual responsibilities were a concern
because as the Export Auditor’s supervisor, the Export Administrator/CTO could have
improperly influenced the ECP audit results. In addition, the Export Auditor’s dual
responsibilities placed him in a position of evaluating his own work. The two conditions
could have resulted in subjective audits.

The GAO internal control standards consider segregation of duties an important element
of an effective control environment. GAO standards require that key duties and
responsibilities be divided among different personnel to reduce the risk of error or fraud.
Such a division of duties is necessary to ensure that no one individual controls all key
aspects of transactions or events. Goddard’s organizational structure for the Export
Administrator, CTO, and Export Auditor conflict with management controls outlined in
the GAO standards, NPD 2190.1, and the NASA ECP Pamphlet and contributed to the
Center’s weak ECP control environment.

Goddard’s Annual ECP Audit

Goddard’s 2000 ECP audit did not comply with NPD 2190.1 requirements or NASA’s
calendar year 2000 ECP audit guidance and did not identify some of the management
control weaknesses identified in this report. Our review of Goddard’s annual ECP audits
for 1999 and 2000 showed the following:

   •   The Export Auditor was neither properly trained nor independent.

   •   The Export Auditor did not maintain documentation to support the audits.

   •   The audit reports did not include required data specified in the NASA ECP
       Pamphlet and Headquarters audit guidance.

   •   The audit reports did not contain a summary of the audit’s results or an attestation
       of the status of the Center’s ECP, recommendations for improvement, or evidence
       of the Export Administrator’s review of the audit.

NPD 2190.1 requires that Center Directors appoint Export Auditors who are qualified for
the position. NASA’s calendar year 2000 guidance on performing ECP audits required




                                             8
Export Auditors to have International Standards Organization 900013 audit/validation
experience or other formal audit training or experience.

In addition, the NASA External Relation Office’s calendar year 2000 guidance for
performing ECP audits required Export Auditors to be independent of the export control
function. Contrary to the guidance, the Goddard Export Auditor was not appointed or
trained and was not independent to ensure an effective ECP audit. As previously
discussed, the Export Auditor was not independent because he reported directly to the
Export Administrator/CTO and served as the Headquarters Transportation Officer.

The ECP audits serve as a management tool to help ensure program integrity. An
effective ECP audit should have identified some of the same management control
weaknesses and noncompliance issues that we identified in our audit. The Goddard ECP
audits consisted of merely completing the checklist included in the calendar year 2000
audit guidance. Further, the Export Auditor only answered the checklist questions and
reported no conditions, recommendations, or follow-up activity. Also, there was no
evidence of review, concurrence, or nonconcurrence with the ECP audit results by the
Export Administrator. In addition, the Export Auditor could not provide any
documentation to support his work. Finally, the Export Auditor did not consider the ECP
control environment to include appointments of ECP key officials and ECP training. The
auditor’s lack of training and independence resulted in ineffective audits and contributed
to the Center’s weakened ECP control environment.

Agency Implementation of ECP Guidance

NASA strengthened its ECP policy by issuing NPD 2190.1 on May 24, 2001. However,
the Agency intended for the NPD to be only a brief policy statement. Agency officials
agreed about 2 years ago to establish ECP implementing procedures in NASA Procedures
and Guidelines 2190. As of February 2002, the procedures and guidelines were still in
draft form. ECP management controls at the NASA Centers should improve once the
procedures are finalized and implemented.

Benefits From Improved Controls

Goddard can improve its overall ECP control environment. Strengthening the
management controls that we identified will provide required checks and safeguards to
better manage Goddard’s ECP initiatives. Additionally, improving the ECP control
environment will help to prevent export violations and statutory penalties that could
result from exports that are contrary to or inconsistent with U.S. export laws and
regulations.




13
 International Standards Organization 9000 is a series of standards and guidelines that define the
minimum requirements for an effective quality system accepted internationally.


                                                     9
Recommendations, Management’s Response, and Evaluation of
Response

The Director, Goddard Space Flight Center, should:

       1. Establish export controls over outgoing international mail. Goddard
       should consider implementing export controls over international mail similar
       to those at the Jet Propulsion Laboratory.

Management’s Response. Concur. Although Goddard concurred, management believes
it can best ensure proper export control over international mail through enhanced
educational efforts rather than routing each piece of international mail through a central
office for export control screening. Goddard stated that the Jet Propulsion Laboratory
Export Administrator reviews only those international mailings that do not include a self-
certification. Goddard will undertake enhanced training through its recurring ECP
training, use of the export control module on the NASA Site for On-line Learning and
Resources, and other means, all of which will include instruction in the screening of
international mail. In addition, the Goddard Export Administrator, in conjunction with
the Goddard International Coordinator, will establish procedures to review all official
foreign correspondence to proscribed countries prior to transmission to the NASA Office
of External Relations for review and concurrence. The complete text of management's
response is in Appendix C.

Evaluation of Management’s Response. Goddard’s planned action is responsive to the
recommendation. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until corrective actions are completed. Management’s
comment that the Jet Propulsion Laboratory’s Export Administrator reviews only those
international mailings that receive no self-certification does not conform to the
Laboratory’s approved draft procedures, which we relied upon in our audit. Specifically,
the draft procedures require: (1) the requester to prepare an "International Mail Self-
Certification" for all unclassified foreign mail, (2) the Legislative and International
Affairs Office to review unpublished technical data and provide an export authorization
or denial, and (3) the Mail Services Office to verify that all foreign mail includes the self-
certification document and to provide copies of the completed documents each month to
the Legislative and International Affairs Office.

       2. Emphasize the ECP by formally appointing the Center Export
       Administrator and by directing the Center Chief Counsel to appoint a
       Center Export Counsel who is adequately trained to perform the ECP duties.

Management’s Response. Concur. The Goddard Director will issue a letter formally
appointing a qualified senior official as Center Export Administrator. On April 1, 2002,
the Goddard Chief Counsel issued a formal letter designating himself as the Center
Export Counsel. Goddard also noted an error in the draft report. Specifically, the former
employee that appointed the Center Export Administrator was the Goddard Patent



                                              10
Counsel, an employee of the Goddard Management Operations Directorate, rather than
the Chief Counsel’s Office as was stated in the draft report. Goddard also noted that the
Center Export Counsel had attended the ECP training provided by the Goddard Export
Control Administrator (see Appendix C).

Evaluation of Management’s Response. Goddard’s planned action is responsive to the
recommendation. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until we receive a copy of the letter appointing the Center
Export Administrator. We revised the final report relating to the Patent Counsel and the
Management Operations Directorate. In addition, we clarified the report to state that the
Center Chief Counsel had not received export training in more than 2 years. Although
we did not obtain written evidence of the Chief Counsel’s ECP training, the Goddard
Export Control Administrator stated that the Chief Counsel attended export briefings in
May 1999 and January 2000.

       3. Direct the Center Export Administrator to emphasize the ECP by:

           •   identifying personnel involved in the export process,
           •   establishing and maintaining a formal training plan for personnel
               involved in the process, and
           •   providing appropriate training to employees with export control
               responsibilities.

Management’s Response. Concur. Goddard is reviewing its organizations that are
currently or potentially associated with international activities to identify additional
personnel performing or appropriate to perform export control responsibilities. Goddard
will enhance its Export Control Office Web site to include links to the Logistics
Management Division and to other export personnel, as Goddard management identifies
them. The Center Export Administrator will provide and document the annual export
control training required by NPD 2190.1 and will implement a more advanced annual
training program for all identified export control personnel (see Appendix C).

Evaluation of Management’s Response. Goddard’s planned actions are responsive to
the recommendation. The recommendation is resolved, but will remain undispositioned
and open for reporting purposes until corrective actions are completed.

       4. Segregate the duties of the Center Export Administrator and the CTO.

Management’s Response. Concur. The Goddard Director will appoint a qualified
senior official as CEA who does not also serve as the Center Transportation Officer (see
Appendix C).

Evaluation of Management’s Response. Goddard’s planned action is responsive to the
recommendation. The recommendation is resolved, but will remain undispositioned and
open for reporting purposes until the corrective action is completed.



                                            11
       5. Appoint a qualified and independent Export Control Auditor, and
          require the Export Control Auditor to maintain supporting audit
          documentation and to comply with NASA Headquarters guidelines for
          performing audits and reporting audit results.

Management’s Response. Concur. The Goddard Director appointed a qualified and
independent Export Control Auditor on March 7, 2002. The Export Control Auditor was
provided with a comprehensive instruction and information package, originating from
NASA Headquarters, regarding duties, responsibilities, and performance guidelines (see
Appendix C).

Evaluation of Management’s Response. Management’s action is responsive to the
recommendation. We consider the actions sufficient to disposition the recommendation,
which will be closed for reporting purposes.

6. The Assistant Administrator for External Relations should expedite issuance of
   NASA Procedures and Guidelines 2190 in final form.

Management’s Response. Concur. The Office of External Relations is currently
reviewing the draft NPG 2190, and entry into NASA’s Online Directives System for
Agencywide review is anticipated in early June 2002.

Evaluation of Management’s Response. Management’s planned action is responsive to
the recommendation. The recommendation is resolved, but will remain undispositioned
and open for reporting purposes until NPG 2190 is finalized.




                                          12
              Appendix A. Objectives, Scope, and Methodology

Objectives

The overall objective of the audit was to determine whether NASA exported controlled
technology in accordance with applicable export laws and regulations and established
NASA export guidance. Specifically, we determined whether NASA exports of
controlled technologies:

     •     were covered by applicable export licenses and
     •     were within the scope of export licenses.

Scope and Methodology

We performed a detailed review of NASA’s Export Control Program (ECP) requirements
and procedures. We examined export records and documents to include export licenses
from the Departments of State and Commerce and Shipper’s Export Declarations. We
also interviewed export officials such as Export Administrators, Export Counsel, Export
Auditors, and Project Managers. We reviewed exports by the Goddard Space Flight
Center (Goddard) and the Jet Propulsion Laboratory because NASA obtained the
majority of export licenses for those locations. The licenses we reviewed at Goddard and
the Jet Propulsion Laboratory represented about 72 percent (40 licenses) of the 56 export
licenses NASA obtained from January 1997 through June 2001. We did not assess the
reliability of computer-processed data, because we did not rely on it to achieve our
objectives.

Management Controls Reviewed

Government auditing standards published by the General Accounting Office (GAO)
require auditors to obtain a sufficient understanding of internal controls to plan and
determine the nature, timing, and tests to be performed during the audit. Internal controls
normally assessed in audits include the control environment, safeguard of assets,
compliance with laws and regulations, and risk assessments. We assessed internal
management controls for the ECP using Office of Management and Budget guidelines
and GAO standards. The primary controls are in the U.S. Department of State's
International Traffic in Arms Regulations; the U.S. Department of Commerce's Export
Administration Regulations; NASA Policy Directive 2190.1, "NASA Export Control
Program,” and NASA's Export Control Pamphlet. We identified management control
weaknesses as discussed in the finding section of this report.

Audit Field Work

We conducted audit field work from September through December 2001 at Goddard, the
Jet Propulsion Laboratory, and NASA Headquarters. We performed the audit in
accordance with generally accepted Government auditing standards.



                                            13
                       Appendix B. Prior Audit Reports

The NASA Office of Inspector General and the General Accounting Office (GAO) have
performed prior audits related to the export of controlled technologies. The reports are
summarized below. (See http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html for
copies of the NASA Office of Inspector General reports.)

   “Contractor Exports of Controlled Technologies,” Report Number IG-00-048,
   September 19, 2000. NASA contractors, TRW Space and Electronics Group (TRW)
   and Lockheed-Martin Michoud Space Systems (Lockheed-Martin) had adequate
   export control programs to ensure exports complied with applicable laws and
   regulations. TRW and Lockheed-Martin had developed effective export control
   policies, established export control training programs, and maintained required and
   readily available export records. Another contractor, Boeing Space and
   Communications Group (Boeing), needed to improve its Export Control Program
   (ECP) to prevent the potential for unauthorized or unlicensed transfers of NASA’s
   International Space Station Program controlled technologies. The auditors concluded
   that NASA lacked assurance that Boeing’s export activities on behalf of the Agency
   fully complied with applicable export laws and regulations.

   We recommended that NASA require Boeing to establish an ECP and a detailed
   company-wide export policy that complied with Export Administration Regulations
   before authorizing Boeing’s use of NASA-obtained export licenses on behalf of the
   International Space Station Program. We also recommended that the Agency require
   the International Space Station Program Office, in coordination with the Center
   Export Administrator, to periodically review Boeing’s and its subcontractors’ ECP’s
   to ensure that exports effected against NASA-obtained licenses were in accordance
   with applicable U.S. export laws and regulations.

   NASA concurred with the recommendations; however, management questioned
   whether some examples in the report were export violations. We reaffirmed that the
   reported examples could represent possible violations because of disparities in
   management’s explanations and inconsistencies in supporting documentation.

   “NASA Oversight of Contractor Exports of Controlled Technologies,” Report
   Number IG-00-018, March 23, 2000. NASA contractors were exporting controlled
   technologies to foreign entities in support of the Agency’s international activities.
   However, NASA managers of major programs at Goddard Space Flight Center,
   Johnson Space Center, and Marshall Space Flight Center were unable to readily
   identify the types and amounts of NASA-funded controlled technologies that
   contractors export. We concluded that NASA lacked assurance that contractor export
   activities complied with applicable U.S. export laws and regulations. We also
   identified potential violations by two NASA contractors that




                                           14
                                                                                Appendix B

   were exporting NASA-funded controlled technologies to foreign contractors in
   furtherance of the International Space Station and Space Shuttle External Tank
   Programs.

   We recommended that NASA require contractors to provide the following:
     • a plan for obtaining required export licenses to fulfill contract requirements,
     • a listing of export licenses the contractor obtained, and
     • a periodic report of the exports effected against those licenses.

   We also recommended that NASA revise its draft NASA Policy Directive 2190,
   “NASA Export Control Program,” to incorporate the oversight responsibilities of
   Agency officials when NASA or its contractors obtain export licenses on behalf of a
   NASA program.

   NASA concurred with the recommendations and agreed to provide additional
   guidance to assure that contracts contain export control requirements. Management
   also agreed to include responsibilities for Agency officials in its draft procedures and
   guidelines on export controls.

   “NASA Control of Export-Controlled Technologies,” Report Number
   IG-99-020, March 31, 1999. NASA had not identified all export-controlled
   technologies of its major programs and did not maintain a catalog of classifications
   for transfers of export-controlled technologies. Also, Agency oversight of and
   training for personnel in the ECP needed improvement. Specifically, the Centers’
   annual ECP audits were not adequately performed, and NASA personnel lacked
   training in controlling and documenting export-controlled technologies. NASA did
   not have adequate control over export-controlled technologies to preclude
   unauthorized or unlicensed transfers.

   NASA concurred with the recommendations and stated it planned to develop a catalog of
   classifications for specific exports, improve training and guidance for ECP auditors, and
   enhance and strengthen training for NASA employees involved directly or indirectly with
   technology control.

The GAO performed one audit of the NASA ECP as it related to the International Space
Station.

   “Export Controls – International Space Station Technology Transfers,” Report
   Number GAO/NSIAD-00-14, November 1999. The GAO found that NASA authorized
   the export of radiation-hardened electronic parts to Russia in 1997 without first obtaining
   a license from the State Department’s Office of Defense Trade Controls. The report
   recommended improvements in the quality of NASA internal audits.




                                             15
Appendix C. Management’s Response




               16
     Appendix C




17
Appendix C




             18
     Appendix C




19
                       Appendix D. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AA/Chief of Staff
AB/Associate Deputy Administrator for Institutions
B/Acting Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
H/Assistant Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
I/Assistant Administrator for External Relations
J/Assistant Administrator for Management Systems
JM/Director, Management Assessment Division
L/Assistant Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
S/Associate Administrator for Space Science
Y/Associate Administrator for Earth Science

NASA Centers

Director, Goddard Space Flight Center
 Chief Counsel, Goddard Space Flight Center
Director, NASA Management Office, Jet Propulsion Laboratory
Chief Counsel, John F. Kennedy Space Center

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Managing Director, Acquisition and Sourcing Management Team, General Accounting
 Office
Senior Professional Staff Member, Senate Subcommittee on Science, Technology, and
 Space




                                          20
                                                                    Appendix D

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management and
 Intergovernmental Relations
House Subcommittee on Technology and Procurement Policy
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                         21
                    NASA Assistant Inspector General for Audits
                                 Reader Survey
The NASA Office of Inspector General has a continuing interest in improving the
usefulness of our reports. We wish to make our reports responsive to our customers’
interests, consistent with our statutory responsibility. Could you help us by completing
our reader survey? For your convenience, the questionnaire can be completed
electronically through our homepage at http://www.hq.nasa.gov/office/oig/hq/audits.html
or can be mailed to the Assistant Inspector General for Audits; NASA Headquarters,
Code W, Washington, DC 20546-0001.

Report Title: Final Report on Goddard Space Flight Center’s Compliance with Export
Control Laws and Regulations.

Report Number:                                         Report Date:


Circle the appropriate rating for the following statements.

                                                      Strongly                                Strongly
                                                       Agree     Agree   Neutral   Disagree   Disagree   N/A
1.   The report was clear, readable, and logically       5         4       3          2          1       N/A
     organized.
2.   The report was concise and to the point.            5         4       3          2          1       N/A
3.   We effectively communicated the audit               5         4       3          2          1       N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5         4       3          2          1       N/A
     support the finding(s) in a balanced and
     objective manner.

Overall, how would you rate the report?

# Excellent                #        Fair
# Very Good#               Poor
# Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

   #   Congressional Staff                 #    Media
   #   NASA Employee                       #    Public Interest
   #   Private Citizen                     #    Other:
   #   Government:            Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                 No: ______
Name: ____________________________


Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Ms. Sandy Massey, Program Director, Safety and Technology Audits

Mr. Karl Allen, Program Manager, Safety and Technology Audits

Mr. Oscar Lindley, Auditor-in-Charge

Mr. Lamar Brickhouse, Auditor

Ms. Nancy Cipolla, Report Process Manager

Ms. Edith Hoggard, Program Assistant
